Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 1 of 15 PageID #: 1500
15a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION

ETHAN HOGGATT, ET AL.

PLAINTIFFS

V.

NO: 1:19CV14-MPM-DAS

ALLSTATE INSURANCE, ET AL.

DEFENDANTS

ORDER
This cause comes before the Court on Plaintiffs’ Rule 60 Motion for Relief from a Judgment
or Order [85], Defendants’ (“Allstate”) Motion for Contempt [90], and Plaintiffs’ Motion for Stay
of Sanctions [95]. The Court has reviewed the briefs and submissions and is prepared to rule.
Procedural History
The facts that give rise to this case are set forth in the Court’s July 23, 2020 Order [83].
Only the following procedural history is relevant here.
On August 19, 2020, a Magistrate Judge granted Allstate’s motion for sanctions [59].
Allstate had moved for sanctions and a protective order because of a discovery dispute [38]. In
short, Plaintiffs had requested documents directly from Allstate in response to an FCRA notice.
Allstate’s attorneys responded that the documents were related to ongoing litigation and needed to
be requested through formal discovery. Plaintiffs then submitted a criminal affidavit accusing
Allstate’s counsel of obstruction of justice. Plaintiffs also filed a motion for leave to amend and an
amended complaint to add Allstate’s counsel as defendants for obstructing justice and related
conspiracy by refusing to produce the documents outside of formal discovery. Plaintiffs later filed
1

APPENDIX C

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 2 of 15 PageID #: 1501
16a
a second motion for leave to amend their complaint for the same reason. Based on these facts, the
Magistrate Judge found that Plaintiffs had unreasonably multiplied the proceedings and thus the
Magistrate Judge awarded Allstate reasonable attorneys’ fees incurred (1) in moving for a
protective order and sanctions and (2) in responding to Plaintiffs’ two motions to amend.
The Plaintiffs next filed two motions in this Court challenging the Magistrate Judge’s
Order: a motion for a certificate of appealability [66] and a motion to appeal the Magistrate Judge’s
decision [69]. On July 23, 2020, this Court denied both motions, concluding that there were no
erroneous findings in the Magistrate Judge’s Order [82]. In addition, this Court agreed that the
discovery dispute and related filings unnecessarily protracted the proceedings; thus, this Court
awarded Allstate reasonable attorneys’ fees incurred in responding to (1) the motion for a
certificate of appealability and (2) the motion to appeal the Magistrate Judge’s decision.
In a separate July 23, 2020 Order, this Court dismissed Plaintiffs’ complaint for the failure
to state a claim upon which relief could be granted [83]. Fed. R. Civ. P. 12(b)(6). In response,
Plaintiffs filed a motion under Fed. R. Civ. P. 60 [85], which is currently before the Court, wherein
they seek relief from this Court’s Order dismissing their complaint and from both sanctions orders.
Plaintiffs also filed a notice to appeal the dismissal of their complaint [86].
On September 4, 2020, Allstate filed a motion for contempt, which is currently before the
Court, stating that Plaintiffs have failed to pay any of the $8085 in outstanding sanctions. Allstate
included with its motion an August 25, 2020 letter that Allstate sent to Plaintiffs in which Allstate
requested the sanctions owed. Allstate also included Plaintiffs’ response to the letter, an August
26, 2020 email stating that Plaintiffs cannot pay the sanctions because they are unable to earn
money during the COVID-19 pandemic.

2

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 3 of 15 PageID #: 1502
17a
Plaintiffs filed a reply to Allstate’s motion for contempt, in which Plaintiffs rehash the
substantive legal arguments related to their dismissed claims; seek an opportunity to “add
[Allstate’s counsel] as a RICO defendant”; and assert that they are unable to pay the sanctions at
this time for the reasons stated in their August 26, 2020 email.
On September 17, 2020, Plaintiffs filed a motion to stay the payment of sanctions pending
appeal, which is currenty before this Court, contending, once again, that they lack the resources to
pay the $8085 in sanctions and cannot currently earn money due to the COVID-19 pandemic [95].
Discussion
I.

Rule 60 Motion for Relief from a Judgment or Order
Plaintiffs seek relief from the Magistrate Judge’s Order awarding sanctions, this Court’s

Order awarding sanctions (collectively “sanctions orders”), and this Court’s Order dismissing
Plaintiffs’ complaint. Plaintiffs rely on Fed. R. Civ. P. 60, which “regulates the procedures by
which a party may obtain relief from a final judgment.” 11 C. Wright, A. Miller & M. Kane,
Federal Practice and Procedure § 2851 (3d ed.).
An order granting relief under Rule 60 must be based upon (1) clerical mistakes; (2)
mistake, inadvertence, surprise, or excusable neglect; (3) newly discovered evidence; (4) fraud or
other misconduct of an adverse party; (5) a void judgment; or (6) any other reason justifying relief
from the operation of the order. Fed. R. Civ. P. 60. Plaintiffs request relief on five separate grounds;
the Court discusses each in turn.
A.

Rule 60(a)

First, Plaintiffs seek relief under Rule 60(a), which provides: “The court may correct a
clerical mistake or a mistake arising from oversight or omission whenever one is found in a
judgment, order, or other part of the record.” Fed. R. Civ. P. 60(a). Rule 60(a) is limited in scope.

3

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 4 of 15 PageID #: 1503
18a
“Clerical mistakes, inaccuracies of transcription, inadvertent omissions, and errors in
mathematical calculation are within Rule 60(a)’s scope; missteps involving substantive legal
reasoning are not.” Rivera v. PNS Stores, Inc., 647 F.3d 188, 194 (5th Cir. 2011) (footnote
omitted).
Plaintiffs assert that the sanctions orders and this Court’s Order dismissing their complaint
were each wrong on the merits and therefore must have each involved an oversight or omission of
some kind. Plaintiffs do not direct the Court to any specific oversight or omission, but instead
rehash the substantive arguments related to their claims, arguments that Plaintiffs have already
raised before this Court and the Magistrate Judge, and that this Court and the Magistrate Judge
have already rejected. Because a Rule 60(a) motion is not a vehicle for raising—or reraising—
substantive arguments, Plaintiffs’ motion is beyond the scope of Rule 60(a).
B.

Rule 60(b)(2)

Second, Plaintiffs seek relief under Rule 60(b)(2), which provides: “[T]he court may
relieve a party . . . from a final judgment, order, or proceeding [because of] . . . newly discovered
evidence that, with reasonable diligence, could not have been discovered in time to move for a
new trial under Rule 59(b).” Fed. R. Civ. P. 60(b)(2). To prevail under Rule 60(b)(2), “the movant
must demonstrate among other things that it exercised due diligence in obtaining the [proffered
newly discovered evidence].” Halicki v. La. Casino Cruises, Inc., 151 F.3d 465, 470 (5th Cir.
1998) (quoting Williams v. Chater, 87 F.3d 702, 705 n.2 (5th Cir. 1996)).
Here, Plaintiffs’ proffered newly discovered evidence is “a recording . . . taken of Allstate
Agent Dyson” on September 25, 2018 that Plaintiffs’ counsel uncovered “[a]fter many frantic days
of search[ing] . . . her IPads and phone for videos and voicemail[s].” [85]. Plaintiffs’ are not
entitled to relief under Rule 60(b)(2) because the recording is not newly discovered evidence

4

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 5 of 15 PageID #: 1504
19a
within the meaning of the Rule. Not only have Plaintiffs failed to show that their proffered newly
discovered evidence was unobtainable with due diligence, Plaintiffs have proven the opposite by
admitting that their counsel already possessed the evidence and had merely misplaced it among
her files. In other words, for the purposes of Rule 60, the proffered evidence was not only
discoverable, it had already been discovered.
C.

Rule 60(b)(3)

Third, Plaintiffs seek relief under Rule 60(b)(3), which provides: “[T]he court may relieve
a party . . . from a final judgment, order, or proceeding for . . . fraud . . . misrepresentation, or
misconduct by an opposing party.” Fed. R. Civ. P. 60(b)(3). The party seeking relief has the burden
to prove fraud, misrepresentation, or misconduct by clear and convincing evidence. Rozier v. Ford
Motor Co., 573 F.2d 1332, 1339 (5th Cir. 1978).
Here, Plaintiffs have failed to meet their burden because, although they claim Allstate
engaged in fraud, Plaintiffs present nothing more than a bare allegation. Plaintiffs do not make any
specific allegations as to what Allstate did that constitutes fraud and do not point to a single piece
of evidence.
D.

Rule 60(b)(5)

Fourth, Plaintiffs seek relief under the “equitability clause” of Rule 60(b)(5), which
provides: “[T]he court may relieve a party . . . from a final judgment, order, or proceeding
[because] . . . applying [the judgment] prospectively is no longer equitable.” Fed. R. Civ. P.
60(b)(5).
As its plain language suggests, the equitability clause of Rule 60(b)(5) only applies to
judgments that have prospective effect. 11 C. Wright, A. Miller & M. Kane, Federal Practice and
Procedure § 2863 (3d ed.). The clause does not apply to “judgments that offer a present remedy

5

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 6 of 15 PageID #: 1505
20a
for a past wrong.” Id. Or, as the Fifth Circuit has explained, it provides relief from tentative,
provisional judgments, not final, permanent judgments. Cook v. Birmingham News, 618 F.2d 1149,
1152 (5th Cir. 1980). Rule 60(b)(5) is thus inapposite here because the dismissal of Plaintiffs’
complaint and the sanctions orders were not prospective within the meaning of 60(b)(5); they were
final and permanent judgments, not tentative or provisional judgments.
E.

Rule 60(d)(3)

Finally, Plaintiffs seek relief under Rule 60(d)(3), which affords a party relief when he can
prove, by clear and convincing evidence, “fraud on the court.” Fed. R. Civ. P. 60(d)(3); Haskett v.
W. Land Servs., Inc., 761 F. App’x 293, 296–97 (5th Cir. 2019) (citing Kinnear-Weed Corp. v.
Humble Oil & Ref. Co., 441 F.2d 631, 636 (5th Cir. 1971)). “Only the most egregious misconduct,
such as bribery of a judge or members of a jury, or the fabrication of evidence by a party in which
an attorney is implicated” constitutes fraud on the court. Jackson v. Thaler, 348 F. App’x 29, 34
(5th Cir. 2009) (quoting Rozier, 573 F.2d at 1338).
Here, again, Plaintiffs merely rehash the substantive arguments related to their claims.
Plaintiffs make no specific allegations as to what Allstate did that constitutes fraud on the court
and Plaintiffs point to no evidence. Therefore, Plaintiffs have not met their burden.
Accordingly, Plaintiffs have not proven any of the specific justifications for relief from an
order permitted under Rule 60. In addition, Plaintiffs have not presented any other reason justifying
relief from the operation of the judgment. Plaintiffs’ Rule 60 motion is denied.
II.

Motion to Stay Enforcement of Sanctions Pending Judicial Review
Plaintiffs seek a stay of the sanctions orders pending their appeal. Plaintiffs state that they

do not have the funds to comply with the sanctions orders and are currently unable to earn money
due to the COVID-19 pandemic. Plaintiffs do not refer to any legal authority in their motion and

6

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 7 of 15 PageID #: 1506
21a
do not provide any evidence to prove their lack of funds; instead, Plaintiffs rehash the merits of
their dismissed claims and dispute the imposition of sanctions. Plaintiffs also claim Allstate’s
counsel, not Plaintiffs’ counsel, has exhibited dilatory and harassing litigation tactics.
Whether to issue a stay pending judicial review is up to the discretion of the court. Nken v.
Holder, 556 U.S. 419, 433, 129 S. Ct. 1749, 173 L.Ed.2d 550 (2009). In deciding whether to grant
a stay pending judicial review, a court shall consider “(1) whether the stay applicant has made a
strong showing that he is likely to succeed on the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the other
parties interested in the proceeding; and (4) where the public interest lies.” Chafin v. Chafin, 568
U.S. 165, 179, 133 S. Ct. 1017, 185 L.Ed.2d 1 (2013) (quoting Nken, 556 U.S. at 434, 129 S. Ct.
1749, 173 L.Ed.2d 550). Of these four considerations, the first two “are the most critical.” Nken,
556 U.S. at 434.
Here, the four considerations weigh resoundingly against a stay. Regarding the first
consideration, Plaintiffs have failed to make a showing that they will succeed on appeal. Plaintiffs’
motion fails to address this Court’s and the Magistrate Judge’s reasoning for imposing sanctions
and fails to present any legal argument for how this Court or the Magistrate Judge erred. More
importantly, Plaintiffs did not mention either of the two sanctions orders in their Notice of Appeal,
so if Plaintiffs do contest the sanctions orders on appeal, the Fifth Circuit will likely conclude that
it lacks jurisdiction to consider Plaintiffs’ challenge. Skidmore Energy Inc. v. Maghred Petroleum
Expl. SA, 251 F. App’x 280, 281 (5th Cir. 2007) (holding that the Fifth Circuit lacked jurisdiction
to consider a challenge to a sanctions order where the appellant’s notice of appeal mentioned the
district court’s contempt order but not the district court’s sanctions order because “[a] timely filed
notice of appeal is a prerequisite to [the Court of Appeals] obtaining jurisdiction” (citing Moody

7

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 8 of 15 PageID #: 1507
22a
Nat’l Bank v. GE Life & Annuity Assurance Co., 383 F.3d 249, 250 (5th Cir. 2004)); see also Olson
v. Wallace Comput. Servs., Inc.,95 F.3d 54, 54 (5th Cir. 1996) (finding that dismissal order not
properly before the Fifth Circuit where appellant’s notice to appeal only mentioned the court’s
post-judgment order denying his motion to amend his complaint and not the order dismissing his
case).
Regarding the second consideration, Plaintiffs claim they lack the funds to comply with
the sanctions orders, but because they have failed to prove insolvency, the Court has no basis to
find that they will be irreparably harmed absent a stay. Regarding the third consideration, the Court
has no basis to conclude that the issuance of a stay would substantially injure any of the parties
involved in the litigation.
Regarding the fourth consideration, the public interest lies in the prompt enforcement of
the sanctions orders. The purpose of imposing the sanctions was, at least in part, to deter Plaintiffs
from continuing to unnecessarily protract this litigation. It is axiomatic that preventing
unnecessarily protracted litigation advances the public interest. As the three motions currently
before the Court demonstrate, as well as the multiplicity of sanctions orders already imposed
against Plaintiffs, the sanctions have not yet served their intended purpose, a purpose that will most
likely be achieved if the Plaintiffs are required to pay the sanctions forthwith. Plaintiffs’ motion
for a stay is denied.
III.

Motion for Contempt
In its motion for contempt, Allstate seeks three things: (1) an order imposing additional

sanctions against Plaintiffs, (2) an order striking any future pleadings from the Plaintiffs in these
proceedings until they comply with the sanctions orders, and (3) an order holding Plaintiffs in civil
contempt for their failure to comply with the sanctions orders.

8

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 9 of 15 PageID #: 1508
23a
“Federal courts possess certain ‘inherent powers,’ not conferred by rule or statute, ‘to
manage their own affairs so as to achieve the orderly and expeditious disposition of cases.’”
Goodyear Tire & Rubber Co. v. Haeger, 137 S. Ct. 1178, 1186, 197 L.Ed.2d 585 (2017) (quoting
Link v. Wabash R.R. Co., 370 U.S. 626, 630–31, 82 S. Ct. 1386, 8 L.Ed.2d 734 (1962)). As part of
this authority, courts may “fashion an appropriate sanction for conduct which abuses the judicial
process.” Id. (quoting Chambers v. NASCO, Inc., 501 U.S. 32, 44–45, 111 S. Ct. 2123, 115 L.Ed.2d
27 (1991)). A court always retains jurisdiction to impose sanctions meant to enforce its own orders
even after the case is no longer pending before it. Fleming & Assocs. v. Newby & Tittle, 529 F.3d
631, 637 (5th Cir. 2008).
A.

Additional Monetary Sanctions

First, Allstate contends that Plaintiffs continue to defy this Court and continue to
unnecessarily protract these proceedings by failing to pay the sanctions orders and by continuing
to rehash rejected arguments related to dismissed claims. Allstate asks the Court to order Plaintiffs
to pay Allstate’s reasonable attorneys’ fees incurred in bringing its Motion for Contempt [90] and
in responding to Plaintiffs’ Rule 60 Motion for Relief from a Judgment or Order [85].
The Court agrees that Plaintiffs have unnecessarily protracted these proceedings by failing
to comply with the sanctions orders. Even if Plaintiffs can prove insolvency, Plaintiffs
unnecessarily protracted these proceedings by ignoring the sanctions orders for more than thirty
days after the orders were entered. Under Fed. R. Civ. P. 62, the enforcement of the sanctions
orders were automatically stayed for thirty days after the orders were entered. See Herbert v. Exxon
Corp., 953 F.2d 936, 937 (5th Cir. 1992) (explaining that the applicability of Rule 62 turns not on
the form of the judgment—in that case a declaratory judgment, in this case sanctions—but strictly
on “whether the judgment involved is monetary or nonmonetary”). Plaintiffs did nothing to comply

9

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 10 of 15 PageID #: 1509
24a
with the orders within those thirty days or to address their inability to comply. Instead, Plaintiffs
waited until Allstate filed a motion for contempt to acknowledge the sanctions orders by moving
for a stay. Failure to address the orders, either by complying or by moving for a stay pending
judicial review, until after the expiration of the thirty-day automatic stay unnecessarily protracted
these proceedings.
Additionally, the Court agrees that Plaintiffs’ Rule 60 Motion for Relief from a Judgment
or Order was frivolous. As the Court’s discussion above demonstrates, Plaintiffs’ arguments under
Rule 60(a) and Rule 60(d)(3) were merely a rehashing of dismissed arguments, which are not
appropriately raised in a Rule 60 motion. Plaintiffs’ argument under Rule 60(b)(3) was a oneparagraph accusation without any evidentiary or legal support. And Plaintiffs made arguments
under Rule 60(b)(2) and 60(b)(5) even though those provisions of Rule 60 are plainly inapposite;
Plaintiffs would have discovered as much had they conducted even the most cursory legal research,
which they seemingly did not, as Plaintiffs’ motion cites nary a case. Therefore, this Court will
award Allstate its reasonable attorneys’ fees incurred in filing its Motion for Contempt [90], its
Memorandum in Support of its Motion for Contempt [91], and in responding to Plaintiffs’ Rule 60
Motion for Relief from a Judgment or Order [85]. Allstate shall submit their itemization of fees
and supporting affidavits within seven days of this order.
B.

Bar on Future Filings

Second, Allstate asks the Court to enter an order precluding Plaintiffs from filing any
further pleadings in this case until Plaintiffs comply with the sanctions orders. When a party fails
to obey a court’s order, the court may sanction the party by barring it from filing further pleadings
until it complies. In re United Mkts. Int’l, Inc., 24 F.3d 650, 656 (5th Cir. 1994). The authority
comes from the court’s inherent power to control its docket. The court’s discretion to impose

10

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 11 of 15 PageID #: 1510
25a
sanctions under its inherent power is limited to instances where a party acts in bad faith or willfully
abuses the judicial process. Pressey v. Patterson, 898 F.2d 1018, 1021 (5th Cir. 1990). A party
shows bad faith by “delaying or disrupting the litigation or hampering enforcement of a court
order.” Ocean-Oil Expert Witness, Inc. v. O’Dwyer, 451 F. App’x 324, 332 (5th Cir. 2011)
(quoting Primus Auto. Fin. Servs. v. Batarse, 115 F.3d 644, 649 (9th Cir. 1997)).
Allstate relies in part on In re United Markets, in which the Fifth Circuit upheld an order
precluding the appellant from filing any pleadings until the appellant complied with previously
imposed sanctions orders. The Fifth Circuit upheld the order because the appellant had continued
to pursue claims even after the court told him they were meritless, after being sanctioned, after his
claims were adjudged against him, and after some of the judgments against him were upheld on
appeal. In re United Mkts., 24 F.3d at 654. Parenthetically, the Fifth Circuit noted that the
appellant, in its appellate brief, attempted to drudge up and relitigate the merits of its claims on
appeal—claims that had already been disposed of and were not properly before the court. Id.
The court’s bar on future filings in In re United Markets was not the harshest sanction
against the appellant. The Fifth Circuit also affirmed the district court’s order involuntarily
dismissing the appellant’s counterclaim and crossclaim. Id. Imposing a sanction that halts a party’s
claim, sometime called the “death penalty” sanction, is not unheard of. For instance, in Holden v.
Simpson Paper Co., the Fifth Circuit upheld an order involuntarily dismissing the plaintiff’s case
because he had failed to comply with multiple sanctions orders. 48 F. App’x 917 (5th Cir. 2002).
Likewise, in Price v. McGlathery, the Fifth Circuit upheld an order involuntarily dismissing a
plaintiff’s case because the plaintiff had established “a history of disobedience to [the] court’s
orders.” 792 F.2d 472, 475 (5th Cir. 1986).

11

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 12 of 15 PageID #: 1511
26a
The Fifth Circuit upheld the order in In re United Markets even though the appellant
claimed that he lacked the funds to comply with the sanctions orders. Id. at 655. The Fifth Circuit
reasoned that, if the appellant was in fact insolvent, monetary sanctions would be ineffective and
the appellant would have no incentive to refrain from continuing in its proclivity to protract
litigation, costing his opponents mounting legal fees. Id. at 656.
The Plaintiffs’ litigation tactics here are similar to the appellant’s litigation tactics in In re
United Markets. Despite the two sanctions orders already imposed against Plaintiffs, Plaintiffs
continue to file frivolous motions. Plaintiffs continue to drudge up the same dismissed merits
arguments in inappropriate motions and at inappropriate stages of the litigation. Plaintiffs’ efforts
continue even though the Court has already adjudged Plaintiffs’ claims meritless and dismissed
them. Moreover, unlike the appellant in In re United Markets, or the plaintiffs in Holden and Price,
Plaintiffs here have no live claims—Allstate has not and could not request the “death penalty”
sanction because Plaintiffs’ claims have already been dismissed—which means a bar on future
filings does not hinder or halt Plaintiffs’ ability to pursue its claims.
In In re United Markets, the Fifth Circuit said: “Like any litigant, [the appellant] was
entitled to his day in court. But he was not entitled to use his special skills and his knowledge as
an attorney to maneuver this suit to his advantage, and to defy the orders of the court designed to
advance its resolution.” Id. The same is true here. Plaintiffs were entitled to be heard, and they
were. But Plaintiffs are not entitled to defy the Court’s resolution of their claims and to misuse the
rules of procedure to continue to argue their claims long after the Court has dismissed them.
Plaintiffs are therefore precluded from any future filing in this matter until they comply with the
sanctions orders.

12

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 13 of 15 PageID #: 1512
27a
C.

Motion for Contempt

Third, Allstate asks the Court to hold Plaintiffs in civil contempt for their failure to comply
with the sanctions orders. When a court holds a party in civil contempt, the court has many options,
including but not limited to coercive incarceration, coercive daily fines payable to the court, and
compensatory fines payable to the victims. See generally Int’l Union, United Mine Workers of Am.
v. Bagwell, 512 U.S. 821, 114 S. Ct. 2552, 129 L.Ed.2d 642 (1994).
A civil contempt order must be designed to coerce compliance with the court’s underlying
order. 3A C. Wright, A. Miller & M. Kane, Federal Practice and Procedure § 703 (4th ed.). In that
vein, an order will only be characterized as civil contempt, as opposed to criminal contempt, if the
object of the order has the ability to comply with the underlying court order and if complying with
the underlying court order will completely purge the contempt order. Id. n.17. In other words, the
object of the contempt order must hold the “keys to his prison.” Id. n.14.
Here, Plaintiffs have claimed an inability to pay sanctions on multiple occasions. They
have offered nothing to prove their inability to pay, and Allstate is skeptical, stating that Plaintiffs
promptly paid the $500 fee required to file an appeal. Because a civil contempt order must be
designed to coerce compliance, a purpose it cannot serve if compliance is impossible, Plaintiffs’
inability to pay, if true, is a complete defense against contempt. United States v. Rylander, 460
U.S. 752, 757, 103 S. Ct. 1548, 75 L.Ed.2d 521 (1983). The party raising the defense of inability
to comply has the burden of proof. Id.
Plaintiffs have ten days to show cause in writing why they should not be held in civil
contempt. This Court’s bar on future filings by the Plaintiffs, discussed above, does not prohibit
them from filing this single motion along with relevant evidentiary support. To be clear, the Court
is only making the narrow request that Plaintiffs file a show cause motion in which Plaintiffs

13

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 14 of 15 PageID #: 1513
28a
attempt to prove that they are insolvent. If, in fact, Plaintiffs are insolvent, then civil contempt is
not appropriate here because it would serve no purpose, Plaintiffs would not have the key to their
own prison. If, on the other hand, Plaintiffs fail to prove that they are insolvent, the Court will hold
them in civil contempt.
It bears noting, even if Plaintiffs prove they are insolvent and this Court deems civil
contempt inappropriate, they will not be relieved of their obligation to comply with the sanctions
orders. In accordance with Mississippi law, Allstate may execute the judgment by pursuing a
garnishment action. Miss. R. Civ. P. 69; First Miss. Nat’l Bank v. KLH Indus., Inc., 457 So. 2d
1333 (Miss. 1984).
Conclusion
Plaintiffs’ Rule 60 Motion for Relief from a Judgment or Order [85] is hereby DENIED.
Plaintiffs’ Motion for Stay of Sanctions [95] is hereby DENIED.
Allstate’s Motion for Contempt [90] is GRANTED. Plaintiffs are ORDERED to pay
Allstate its reasonable attorneys’ fees incurred in filing its Motion for Contempt [90], its
Memorandum in Support of its Motion for Contempt [91], and in responding to Plaintiffs’ Rule 60
Motion for Relief from a Judgment or Order [85]. Allstate is ORDERED to submit their
itemization of fees and supporting affidavits within seven (7) days of this order. Furthermore, until
Plaintiffs comply with all sanctions orders, any further pleadings in this matter filed by the
Plaintiffs—except for their motion to show cause why they should not be held in civil contempt
and related evidence—will be stricken from the record and will not be considered by this Court.
Finally, Plaintiffs are ORDERED to show cause in writing within ten (10) days as to why
they should not be held in civil contempt for their failure to comply with the August 19, 2019

14

Case: 1:19-cv-00014-MPM-DAS Doc #: 98 Filed: 10/07/20 15 of 15 PageID #: 1514
29a
Order [59] and the July 23, 2020 Order [82] imposing sanctions. Alternatively, Plaintiffs are
ORDERED to pay Allstate all sanctions owed within ten (10) days.
SO ORDERED, this the 7th day of October, 2020.

/s/ Michael P. Mills
UNITED STATES DISTRICT JUDGE
NORTHERN DISTRICT OF MISSISSIPPI

15

